FDIC Office of Inspector General Press Release: Centerville Woman Sentenced in Multi-Million Dollar Mortgage Fraud Scheme
United States Department of Justice
United States Attorney's Office Dana J. BoenteEastern District of Virginia
FOR IMMEDIATE RELEASE
October 3, 2014
Centerville Woman Sentenced in Multi-Million Dollar Mortgage Fraud Scheme
The Scheme Targeted Non-English Speaking Home Buyers in the Northern Virginia Hispanic Community
ALEXANDRIA,  Va. â Lorene Chittenden, 57, of Centerville, Va., was sentenced today to 42  months in prison, followed by three years of supervised release, for conspiracy  to commit bank fraud and related charges arising from a multi-million dollar  mortgage fraud scheme.
The  amounts in restitution and forfeiture that Chittenden will pay will be  determined at a later hearing.  More than $1 million dollars in bank  accounts belonging to Chittenden were seized by law enforcement agents when the  charges were first filed.
Dana  J. Boente, U.S. Attorney for the Eastern District of Virginia; Andrew McCabe,  Assistant Director in Charge of the FBI’s Washington Field Office; and Fred W.  Gibson, Principal Deputy Inspector General for the Federal Deposit Insurance  Corporation (FDIC) Office of Inspector General made the announcement after  sentencing by U.S. District Judge Liam O’Grady.
Chittenden was found guilty after a six-day jury trial on May 7, 2014.  According  to court documents, Chittenden and her co-conspirators were responsible for  over $15 million in losses to various lending institutions that purchased  fraudulent loans that Chittenden originated as a loan officer at George Mason  Mortgage, a subsidiary of federally-insured Cardinal Bank.  The defendant  and her co-conspirators from Manassas real estate firm Vilchez & Associates  fraudulently inflated the income and assets of their clients to obtain mortgage  loans in amounts that the clients were wholly unqualified for.  Chittenden  earned hundreds of thousands of dollars in loan commissions from the fraud,  while ringleader Rosita Vilchez pocketed millions of dollars in real estate  commissions.  The Vilchez conspiracy targeted hundreds of  non-English-speaking members of the northern Virginia Hispanic community who  were not able to read the loan applications and closing documents they were  asked to sign.  Often the amount of the monthly mortgage payments was  unknown or even misrepresented to the borrowers.  Vilchez was recently  arrested in Peru where she had been a fugitive.  Her brother, Armando  Pino, who was also a realtor at Vilchez & Associates, was arrested in Peru  in December 2012.  Both Vilchez and Pino are fighting extradition to the  United States to face charges.
This  case was investigated by the FBI’s Washington Field Office and the FDIC Office  of Inspector General.  Assistant U.S. Attorneys James P. Gillis and Julia  K. Martinez prosecuted the case on behalf of the United States.
A  copy of this press release may be found on the website of the U.S. Attorney’s Office for the Eastern  District of Virginia.  Related court documents and information may be  found on the website of the District Court for the Eastern  District of Virginia or on PACER by searching  for Case No. 1:12-cr-00394.
####